OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/MADAGASCAR’S
PROCUREMENT AND
DISTRIBUTION OF LONG-LASTING
INSECTICIDE-TREATED NETS
UNDER THE PRESIDENT’S
MALARIA INITIATIVE
AUDIT REPORT NO. 4-687-14-005-P
MAY 20, 2014




PRETORIA, SOUTH AFRICA
Office of Inspector General

May 20, 2014

MEMORANDUM

TO:                  USAID/Madagascar Mission Director, Susan Riley

FROM:                Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Audit of USAID/Madagascar’s Procurement and Distribution of Long-Lasting
                     Insecticide-Treated Nets Under the President’s Malaria Initiative
                     (Report No. 4-687-14-005-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety (except as noted
below and without attachments) in Appendix II.

The report includes 12 recommendations to strengthen USAID’s procurement and distribution of
nets in Madagascar. We redacted Recommendation 2 and your response from this report and
will separately transmit that recommendation along with our evaluation of your response. Based
on subsequent correspondence from the mission, we removed Recommendations 7 and 8 from
the draft report and renumbered Recommendations 9 through 14 accordingly. We acknowledge
management decisions on seven recommendations (1, 3, 6, 9, 10, 11, and 12).

Four recommendations remain without a management decision (4, 5, 7, and 8). In accordance
with ADS 595.3.1.2.a, a management decision cannot be acknowledged on Recommendation 5
until the agreement officer specifies the amount of questioned cost-sharing contributions
(currently $75,838) allowed and/or disallowed. Recommendations 4, 7, and 8 require detailed
information on planned corrective actions in accordance with ADS 595.3.1.2.c.(2). We consider
that final action has been taken on Recommendation 10 and it is closed.

Please have the responsible official provide us with written notice within 30 days on actions
planned or taken regarding Recommendations 4, 5, 7, and 8. Please also provide the Office of
Audit Performance and Compliance Division with the necessary documentation to achieve final
action on Recommendations 1, 3, 6, 9, 11, and 12.

Although we acknowledged management decisions on Recommendations 1 and 9, we
disagreed with them for the reasons stated on pages 16 and 18. If the mission revises its
decision for any of these recommendations, please do so in writing. Significant management
decisions that OIG disagrees with are reported in our semiannual report to Congress.

I appreciate the cooperation and courtesy extended to my staff during the audit.


U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................5

     Net Distribution Did Not Follow Guidelines ............................................................................5

     Net Distribution Was Not Well Organized ..............................................................................7

     Some Cost-Sharing Contributions Did Not Meet Requirements .............................................8

     Program Did Not Comply With Environmental Requirements ..............................................10

     Branding and Marking Efforts Were Inadequate ..................................................................12

Other Matter ............................................................................................................................13

     Previous Audit and Review Recommendations Were Not Implemented .............................. 13

Evaluation of Management Comments..................................................................................16

Appendix I—Scope and Methodology ...................................................................................19

Appendix II—Management Comments ..................................................................................21




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer’s representative
CDC             Centers for Disease Control and Prevention
CFR             Code of Federal Regulations
COR             contracting officer’s representative
JSI             John Snow Inc.
FY              fiscal year
NCC             National Coordinating Committee
NMCP            National Malaria Control Program
OMB             Office of Management and Budget
PMI             President’s Malaria Initiative
PSI             Population Services International
RIG             Regional Inspector General
UNICEF          United Nations Children’s Fund
WHO             World Health Organization
SUMMARY OF RESULTS
Madagascar, one of the poorest countries in the world, faces significant public health problems
like malaria, which threatens social and economic development. Consequently, the island nation
off the east coast of Africa was selected to receive funding under the President’s Malaria
Initiative (PMI) in 2006, and full implementation began in fiscal year (FY) 2008.

Since then, several interventions have yielded significant gains. One of them involved
distributing long-lasting nets treated with insecticide to people in heavily affected areas; USAID
has procured more than 8.4 million nets for distribution since 2009. As a result of this
assistance, the percentage of children who slept under a net the previous night increased from
58 percent in 2009 to 89 percent in 2011. Likewise, the number of pregnant women who slept
under a net the previous night also increased from 58 percent in 2009 to 85 percent in 2011. 1

The U.S. Government suspended all assistance to the Malagasy Government after the military
assumed power during a coup d’état in 2009. As a result, USAID could not directly support the
government’s health systems. However, USAID has been allowed to support Madagascar’s
national strategic plan through key malaria initiatives that do not involve direct government
support because USAID can provide the assistance directly to the Malagasy people.

Table 1 lists the main implementer of net procurement, John Snow Inc. (JSI), and of distribution,
Population Services International (PSI), that were in the audit. In 2012 USAID procured
2.1 million nets for distribution in 19 districts and 2.7 million nets for 28 districts in 2013.

                Table 1. Audited Programs in Madagascar (Amounts Unaudited)
                                                                     Spent in
                                                                                      Task Order/
                                                                     fiscal years
          Implementer                Program Description                              Agreement
                                                                     2012 and
                                                                                      Dates
                                                                     2013 ($)
                             JSI’s DELIVER project seeks to
                             improve availability of high-quality
                             malaria products by procuring
                                                                                      Task Order
               JSI           commodities like nets for distribution.   14,585,631
                                                                                      3/2011–3/2014
                             JSI also works to strengthen the local
                             systems that manage PMI
                             commodities once they arrive.
                             PSI’s program seeks to improve the
                             health of the Malagasy people,
                             particularly women and children,
                             through an increasingly sustainable                      Cooperative
                             social marketing program that delivers                   Agreement
              PSI            essential health products and
                                                                        4,407,794
                                                                                      1/2013–
                             services, particularly focused on rural                  12/2017*
                             and underserved areas. PSI is the
                             primary distributor of nets procured
                             through DELIVER.
     * PSI has distributed USAID-funded nets since 2009. PSI distributed nets in 2012 under a different
     agreement that ended in December 2012.

1
    PMI 2013 Madagascar Country Profile.


                                                                                                          1
The Regional Inspector General/Pretoria (RIG) conducted this audit to determine whether nets
funded under PMI reached intended beneficiaries in Madagascar and were used as intended.
The audit covered net procurement and distribution activities for fiscal years 2012 and 2013.




One beneficiary’s net is still in the bag (left) from the 2012 distribution in Toamasina. Another
beneficiary who received a net from the same distribution is using hers (right). (Photo by
RIG/Pretoria, December 2013)

The audit determined that beneficiaries who received nets found them to be helpful and used
them as intended. However, the national committee in charge of malaria policy inaccurately
forecast the number of nets needed. Therefore USAID did not procure enough to meet
Madagascar’s universal coverage goal of one net for every two people in the household; instead
the mission distributed one net for every three people.

Although the inaccurate forecasts were largely beyond USAID’s control because census
activities are funded by another donor, the audit found that the mission’s PMI adviser did not
attend any meetings of the national committee that is responsible for planning net forecasting
and ordering—of which USAID is a member—in 2013. Furthermore, poor planning meant that
some potential beneficiaries did not receive nets, even though more than 225,000 nets meant
for the 2012 and 2013 campaigns were sitting in warehouses and incurring unnecessary
storage costs (page 7).

The mission’s PMI program has had staffing problems, thereby putting pressure on current staff
to take on more responsibilities. The senior public health adviser position was eliminated in
August 2013, and the activity manager for JSI’s DELIVER project resigned a week before this
audit and had not been replaced. Meanwhile, the resident Centers for Disease Control and
Prevention (CDC) PMI adviser completed her assignment and departed in June 2013, but her
replacement did not arrive until December.

The audit also found that:

•   Some cost-sharing contributions did not meet USAID’s requirements (page 8). As a result,
    the mission allowed PSI to claim unallowable contributions.

•   The program did not comply with environmental requirements (page 10). Bed net bags were
    not collected and disposed of as required.



                                                                                                2
•   Beneficiaries did not know about USAID’s efforts (page 12). Therefore the American people
    did not get the credit they deserved.

In another matter unrelated to the scope of this audit, the audit team found that PSI had not
acted on previous recommendations to improve warehouse storage conditions and to address
salary levels that violated its own policies (page 13).

To strengthen USAID/Madagascar’s PMI program and address the other matter, the audit
recommends that the mission:

1. Implement a plan to increase its involvement and participation on the National Coordinating
   Committee (NCC), and coordinate efforts with other donors on the committee to improve the
   quality and timeliness of population census results (page 6).

2. [This recommendation has been redacted because it represents information that could
   identify an individual USAID employee. Personally identifiable information is subject to the
   Privacy Act and other laws. The disclosure of the identity of this individual employee would
   not advance the public’s right to know and understand the operation of the program that is
   the subject of this audit].

3. Implement a plan to distribute unused nets from previous campaigns (page 8).

4. Implement a plan to improve monitoring and oversight of its net distribution activities,
   including visits to warehouses storing nets, to make sure distributors are working effectively
   and consistently (page 8).

5. Determine the allowability of $75,838 in questioned cost-share contributions made by PSI
   and disallow any amounts determined to be unallowable (page 10).

6. Ask PSI to remove similar amounts not sampled from its reported cost-share contributions,
   and verify that these amounts are reflected in PSI’s financial forms, called Standard Form
   425 reports (page 10).

7. Implement a plan to include periodic review of the composition of implementers’ cost-share
   contributions as part of its normal financial oversight procedures (page 10).

8. Implement a plan, including surprise site visits, to verify that net bags from future PMI
   distribution campaigns are disposed of properly (page 12).

9. Rewrite its branding and marking policy to clarify branding expectations given current
   restrictions on working directly with the Malagasy Government, and disseminate the updated
   version to its implementers (page 12).

10. Instruct PSI to implement an action plan to correct contraceptive storage conditions within
    90 days (page 14).

11. Quantify excessive salaries paid to PSI employees, determine the allowability of any
    excessive amounts, and recover from PSI any amount determined to be unallowable
    (page 15).




                                                                                               3
12. Give agreement officer’s representatives (AORs) and contracting officer’s representatives
    (CORs) written reminders about the importance of complying with Mission Order 203-004
    when conducting site visits, and specify appropriate sanctions for repeated failure to do so
    (page 15).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are included in their entirety (without attachments and with
the response to Recommendation 2 redacted) in Appendix II, and our evaluation of them begins
on page 16.




                                                                                              4
AUDIT FINDINGS
Net Distribution Did Not Follow
Guidelines
According to the World Health Organization (WHO), a household should have one bed net for
every two members. In addition, net use is typically high when people have access to them.

Madagascar’s National Malarial Control Program (NMCP) adopted the WHO standard, and
donors are expected to follow it when distributing nets. Accordingly, USAID/Madagascar’s
2013 Malaria Operational Plan states, “PMI is supporting the Ministry of Health goal of universal
coverage . . . of one [net] per [two] persons in 93 of the 112 health districts where seasonal or
perennial malaria transmission occurs.” USAID’s 2012 planning activities also demonstrated the
intention to distribute one [net] per [two] persons. However, the audit found that the mission
could not follow this standard during its 2012 and 2013 distribution campaigns.

To coordinate malaria assistance efforts in Madagascar, the NCC was formed in 2009. The
committee is comprised of donors and implementers such as USAID, Global Fund, United
Nations Children’s Fund (UNICEF), PSI, JSI, WHO, and Peace Corps, and the chairman is a
NMCP official. NCC’s functions include forecasting commodity needs (including nets), ordering
them, and coordinating their distribution. The committee usually meets monthly but convenes
more frequently during forecasting and distribution cycles. In calculating the number of nets
needed, NCC uses the WHO standard on net access. Once that number is determined,
quantities are shared among donors (including USAID), and nets are ordered for the distribution
campaigns.

Although USAID ordered the numbers NCC requested for the 2012 and 2013 campaigns, it was
not enough to meet the one-net-per-two-people guideline. The program’s AOR concluded in a
post-distribution analysis that USAID needed approximately 3 million nets to meet national
guidelines for the 19 districts it distributed to in 2012, yet only 2.1 million were on hand.

In 2013, 2.7 million nets were available for distribution in 28 districts in western Madagascar,
and that was not enough for everyone who needed a net, according to national guidelines.
Therefore, USAID changed its distribution criteria to one net for every three people in a
household to satisfy demand in its assigned districts. The AOR (who is also the mission’s PMI
adviser and activity manager for JSI’s DELIVER project) could not provide the auditors with an
estimated quantity of nets needed to meet the WHO standard in 2013.

According to NMCP officials, the shortage happened because NCC used outdated census data
to determine how many nets were needed. This became apparent during planning for the
2009 campaign, when the only available data were from 1993. To compensate, NCC increased
population figures from the 1993 census by 26 percent for the 2009 campaign and 30 percent
for the 2012 campaign. But they were inadequate.

To help provide accurate data, the Global Fund sponsored censuses that PSI conducted in
regions where nets were distributed. Although the censuses were intended to provide NCC with
reliable data for forecasting demand and planning distributions, they sometimes took place after
net distribution. For example, in 2012 distribution took place from November 26 to December 2,


                                                                                               5
while the census was conducted from November 19 to December 14. According to NMCP and
PSI’s subrecipient officials, the census did not happen on time because the Global Fund was
late in delivering funds.

The officials spoke of other problems with these censuses. A subrecipient official said although
a census was conducted in its distribution area just before the 2013 net distribution, it was
inaccurate and therefore unreliable. The community in question felt that the PSI census
undercounted the population when compared with a census they conducted. PSI subsequently
increased its count by more than 100 percent, demonstrating a lack of confidence in its own
census.

Although USAID does not pay for the censuses, it is a member of NCC, and the mission’s
malaria activities are affected by the committee’s decisions. Yet the mission’s PMI adviser—who
is responsible for providing technical leadership, coordinating the mission’s PMI program, and
monitoring and working with other donors—did not attend NCC meetings in 2013. He said that
because the former CDC PMI adviser regularly attended the meetings, he worked closely with
her to address issues relevant to USAID. (However, she left Madagascar in June 2013.) He also
said JSI and PSI are on the committee as well, and that was sufficient representation for
USAID. However, a PSI official said that even though PSI attended NCC meetings, it was not an
official member and therefore did not have a vote in deciding the quantity to be ordered.

Because of the troubles in accurately forecasting net demand, residents in 31 of 50 households
interviewed during this audit did not receive enough nets. Some said it was impractical for
three household members to share a net, so they had to buy additional ones. Some continued
to use old nets, while other households had to choose who slept under a net, leaving some
household members vulnerable to malaria.

Although the cause of this problem was largely beyond the mission’s direct control, USAID’s
ability to influence malaria policy in Madagascar was diminished by the PMI adviser’s failure to
attend NCC meetings. Because he did not attend, USAID was not represented during
discussions about where its implementers would be responsible for distributing nets. We
consider the PMI adviser’s repeated lack of attendance to be an egregious disregard of his
duties. Therefore, to improve the mission’s net distribution program, we make the following
recommendations.

   Recommendation 1. We recommend that USAID/Madagascar implement a plan to
   increase its involvement and participation on the National Coordinating Committee and
   coordinate efforts with other donors on the committee to improve the quality and
   timeliness of population census results.

   Recommendation 2. [Redactions in this section of the report represent information that
   could identify an individual USAID employee. Personally identifiable information is
   subject to protection under the Privacy Act and other laws. The disclosure of the identity
   of this individual employee would not advance the public’s right to know and understand
   the operation of the program that is the subject of this audit].




                                                                                                6
Net Distribution Was Not Well
Organized
Once nets arrived in Madagascar, PSI’s subrecipients distributed them to beneficiaries during
planned distribution campaigns. According to their agreements with PSI, subrecipients were
required to distribute all nets during the campaigns, leaving none left over. To accomplish this,
PSI required its subrecipients to canvass their assigned areas beforehand to educate
beneficiaries about the benefits of nets, inform them when and where distributions would occur,
and register them to receive nets. Following distribution, subrecipients were supposed to verify
that beneficiaries were using the nets as intended, answer any questions that they may have,
and give nets to households that were missed during the campaigns. Subrecipients used
community health workers to carry out these tasks and complete any required follow-up.

Despite the shortage of nets discussed above and the requirement to distribute all nets during
the campaigns, the audit found more than 200,000 nets (worth more than $300,000) that PSI
subrecipients never picked up from JSI’s warehouse where they were stored before being
transported to the various districts for distribution. Auditors found another 25,000 (worth
$37,500) from the 2012 and 2013 campaigns in PSI’s warehouses. PSI officials said they did
not know what the plans were for these nets.




      Bales of nets (left) were supposed to be distributed in 2013, but they were never
      picked up from JSI’s warehouse. The bales on the right were returned to PSI’s
      warehouse following 2012 and 2013 distributions. Each bale contains 50 nets. (Photo
      by RIG/Pretoria, December 2013)

According to JSI officials, the 200,000 nets were never picked up because PSI had determined
them to be extras based on its pre-distribution planning. The PMI adviser (who was also the
activity manager during the audit) had never visited the JSI warehouse. As a result, the
warehouse lease, which was scheduled to end in October 2013, had to be extended to
December 31, 2013, for more than $22,000 a month.

Additionally, some subrecipients and community health workers did not distribute nets as
planned. Although community health workers were supposed to visit and register households
prior to distribution, this did not always happen. For example, 16 out of 50 households
interviewed by auditors said they were not registered by a community health worker, resulting in
some beneficiaries learning of the campaigns through friends and neighbors.



                                                                                               7
One community health worker said she did not give nets to households that had not
preregistered, even though PSI provided additional nets to cover them because she was afraid
of running out of nets. Three households that had preregistered through this community health
worker were not told when distribution would occur, increasing the risk that they would not be
present to receive the nets intended for them. These households had young children and an
inadequate number of nets; as a result, some household members did not sleep under nets,
exposing them to greater risk of contracting malaria.

These problems occurred because PSI and USAID did not monitor distribution practices
adequately to identify and correct deficiencies. Although PSI required its subrecipients to
identify and train community health workers to distribute nets, it did not follow up to confirm that
they were doing their jobs. Furthermore, required post-campaign visits by community health
workers were not always conducted, leading to missed opportunities to give nets to those who
missed the distribution or address any problems they may have with the nets. While the USAID
AOR visited some distribution sites, he did not focus on community health workers’ actual
distribution practices.

Because of these problems, 10 of 50 households we surveyed did not receive the correct
number of nets even after the distribution criteria was revised to one net per three people.
Several received too few, forcing some household members to sleep without a net. Others
received too many, exacerbating shortages elsewhere; one household of eight people received
eight nets—four more than the national standard and five more than the one USAID applied—
because the community health worker gave them extras on the last day of campaign.

As a result, nets that people needed remained in storage, and USAID had to extend the
warehouse lease for 2 months at more than $22,000 per month. In addition, WHO guidelines
state that insecticide-treated nets have a limited shelf life in storage, so additional storage time
may reduce the nets’ utility for beneficiaries.

At the end of audit fieldwork, USAID/Madagascar had not developed a plan to distribute the
leftover nets. To address these problems, we make the following recommendations.

   Recommendation 3. We recommend that USAID/Madagascar implement a plan to
   distribute unused nets from prior distribution campaigns.

   Recommendation 4. We recommend that USAID/Madagascar implement a plan to
   improve monitoring and oversight of net distribution activities, including visits to
   warehouses storing nets, to promote consistent, effective practices among all
   distributors.

Some Cost-Sharing Contributions Did
Not Meet Requirements
According to USAID’s Automated Directives System (ADS) 303.3.10, “Cost share refers to the
resources a recipient contributes to the total cost of an award.” Title 22 of the Code of Federal
Regulations (CFR), Part 226, Section 2 defines cost sharing or matching as that portion of
project or program costs not borne by the federal government. Section 23 requires that cost-
share contributions be verifiable from the recipient’s records, and that they be necessary and
reasonable for proper, efficient accomplishment of project objectives. If a recipient does not



                                                                                                  8
meet its cost-sharing requirement, USAID can apply the shortfall to reduce the amount of
USAID funding for the next funding period or ask the recipient to refund the difference to USAID
when the award ends.

Under its agreement, PSI was to provide $9.59 million, or 26 percent of total project costs, as
cost share. Table 2 shows the contributions specified in PSI’s cost-share budget, which
USAID/Madagascar approved during the award negotiation process.

            Table 2. Approved Cost-Share Contributions per Award Budget (Unaudited)
        Funder           Items                         Description                         Amount ($)
                                    Net contribution for routine and mass distribution
    Global Fund       nets*                                                                   5,889,429
                                    by PSI.
                                    Malaria drug contribution to project activities from
                      malaria
    Global Fund                     Global Fund’s ongoing malaria program in                   178,428
                      drugs
                                    Madagascar.
    Program Income                  Program income derived from USAID project to
                      commodities                                                              921,129
    –USAID                          be used to purchase additional commodities.
    Program Income                  Program income derived from USAID project to
                      packaging                                                               1,868,810
    –USAID                          be used to pack commodities.
                      family
    Women Health                    Funding would be used to support project in
                      planning                                                                 729,950
    Project                         Madagascar.
                      activities
    Total                                                                                     9,587,746

* These nets had not yet been contributed to USAID and were not part of the 2013 distribution campaign.

From January 1, 2013, to September 30, 2013, PSI claimed cost-sharing contributions of
$1,438,793. We randomly selected a sample of transactions totaling $93,115 from PSI’s records
to verify compliance with 22 CFR 226.23 and found that $75,838 (81 percent) were either
unsupported or not related to program objectives.

•     Although PSI claimed $32,725 for warehousing costs as cost share, part of the warehouse
      was used to store items unrelated to USAID’s PMI activities, such as scrap materials, new
      equipment (shown in pictures below), and nets and other commodities that belonged to
      other donors.




 PSI stores its own scrap materials (left) and furniture (right) in a warehouse in Antananarivo.
 However, it claimed the rent as cost share. (Photo by RIG/Pretoria, December 2013)


                                                                                                        9
•   Local PSI officials did not provide supporting documentation for six transactions totaling
    $2,886. They said the documents were prepared and stored at their headquarters in
    Washington, D.C. These contributions included four transactions amounting to $1,577
    whose descriptions in PSI’s accounting system were names of schools in South Africa. In
    addition to not providing support for these expenditures, PSI could not explain what the
    expenses were for, or how they contributed to the accomplishment of USAID program
    objectives in Madagascar. In another case, we selected $1,309 paid to one of PSI’s key
    officials for per diem. PSI officials explained details of the trip but did not provide any
    support.

•   PSI included $40,227 on salaries for Global Fund projects as cost share. PSI implemented
    three projects for the Global Fund, which included malaria treatment, distributing nets in
    districts different from those allocated to USAID, and HIV/AIDS counseling and testing.

Although the AOR’s responsibility to monitor cost share is in his designation letter, he said he
was not aware of this. He added that the mission’s financial analyst supporting the health team
provided cost-share oversight for PSI’s agreement because he did not have the financial skills
needed to perform this task. In fact, the mission’s FY 2013 risk assessment required by the
Federal Managers’ Financial Integrity Act of 1982 stated that its AORs do not have the
necessary skills and training to carry out their duties.

The financial analyst, however, said he only tracked the cost-share percentage PSI met—not
where the funds came from or their compliance with CFR.

Cost share is an integral part of an award’s total resources that are devoted to achieving
planned objectives. Although PSI is audited annually pursuant to Office of Management and
Budget Circular (OMB) A-133, these audits rarely look at the detail of cost-sharing contributions
for individual awards. Thus, some periodic review is warranted to confirm that the contributions
comply with the award and federal regulations. To promote more effective use of cost-sharing
contributions, this audit makes the following recommendations.

    Recommendation 5. We recommend that USAID/Madagascar determine the
    allowability of $75,838 in questioned cost-share contributions made by Population
    Services International and disallow any amounts determined to be unallowable.

    Recommendation 6. We recommend that USAID/Madagascar instruct Population
    Services International to remove similar amounts not sampled from its reported cost-
    share contributions, and verify that these amounts are reflected properly in Population
    Services International’s Standard Form 425 reports.

    Recommendation 7. We recommend that USAID/Madagascar implement a plan to
    include periodic review of the composition of implementers’ cost-share contributions as
    part of its normal financial oversight procedures.

Program Did Not Comply With
Environmental Requirements
Section 117 of the Foreign Assistance Act of 1961, as amended, requires USAID to consider
the impact of its programs on the environment. This is supplemented by 22 CFR 216 and


                                                                                              10
ADS 204, “Environmental Procedures,” which require that the potential environmental effects of
USAID-financed activities be identified before deciding to proceed and that appropriate
safeguards are adopted once activities start.

For the Madagascar campaigns, PSI was required to verify that the plastic bags containing the
nets were disposed of appropriately, preferably through recycling or incineration. If this was not
possible, the preferred alternative was to bury them.

After the 2012 campaign, PSI reported that communities were instructed to collect all the bags
from beneficiaries after distribution and bury them under the supervision of subrecipient officials.
It further reported performing physical inspections after distribution to verify compliance with
environmental requirements. For the 2013 campaign, PSI reported that all bags were cut open
to preclude future use, collected at the distribution sites, and buried by community health
workers. PSI added that beneficiaries who insisted on taking their nets home in the bags were
subsequently contacted by a community health worker to collect them for disposal.

These actions did not occur in the four districts auditors visited. The bags were never collected,
and beneficiaries were asked to dispose of them on their own. Twenty-five of the
50 beneficiaries reported not receiving any guidance from PSI or its subrecipients on what to do
with the bags. Only 13 out of 50 said they buried their used bags, while 7 burned them, 12 threw
them in the trash, and 9 chose to keep the bags in their homes. Of the remaining nine,
one reported sending the bag back to the community health worker for disposal, and the rest
either did not remember what they did with the bags or did not receive any nets.




These net bags from 2012 and 2013 distributions were never collected for disposal and remained
with beneficiaries (Photo by RIG/Pretoria, December 2013)

While subrecipients told the communities to bury the bags, they did not follow up to make sure
they did. Nor did PSI monitor its subrecipients to make sure they were verifying compliance with
environmental requirements.

Although the AOR gave auditors photographs of a pile of net bags ready to be buried at a
distribution site in October 2013, the site visit was planned in advance with PSI and was
attended by the mission director.

USAID plans to spend $1.6 million over the next 2 years to promote natural resources
management in Madagascar. Noncompliance with environmental requirements in other USAID
programs can diminish the effectiveness of that assistance. Therefore, we make the following
recommendation.


                                                                                                 11
   Recommendation 8. We recommend that USAID/Madagascar implement a plan,
   including surprise site visits, to verify that net bags from future President’s Malaria
   Initiative distribution campaigns are disposed of properly.

Branding and Marking Efforts Were
Inadequate
Section 641 of USAID’s framework legislation, the Foreign Assistance Act of 1961 (codified as
amended in 22 U.S.C. 2401), specifies that programs under the act be identified appropriately
overseas as “American aid” because doing so helps the Agency advance U.S. foreign policy
interests. In addition, ADS 320 requires that all foreign assistance be branded appropriately.

Despite these requirements, people who got USAID-funded nets in Madagascar did not know
that they were paid for by the United States. Although USAID’s implementers had branding and
marking plans as required, they did not comply with them. The warehouse JSI used to store
nets was marked only with the subcontractor’s logo because neither USAID nor JSI briefed the
warehouse manager on branding requirements. Events associated with mass distribution
campaigns were not branded with USAID logos either. For example, the net bags and vests
community health workers wore during the campaigns did not bear the USAID logo.

In 2012 the mission instructed implementers not to co-brand—have USAID logos alongside that
of the Malagasy Government—because of sanctions imposed by the U.S. Government.
However, this communication was not worded clearly, and implementers interpreted it to mean
no branding at all for distribution campaigns. PSI officials said the instructions, coupled with
other restrictions on working directly with the government, confused them on how to brand and
promote USAID activities in Madagascar.

Similar confusion existed during the 2013 campaign. The AOR did not identify noncompliance
with branding requirements during site visits because he did not follow Mission Order 203-004,
which included a checklist with areas on branding to be addressed during site visits.

Because of inadequate branding, beneficiaries credited the Malagasy Government or other
donors like UNICEF for the nets that they received. Only 1 of 25 households visited in
Toamasina was aware of the U.S. Government’s involvement (this household also was used as
a storage and distribution site during the campaign). Moreover, the president of a village and the
community health worker who coordinated net distribution at a site in Toamasina did not know
who sponsored the program. Similarly, in Mahajanga none of the 25 beneficiaries and
community health workers interviewed was aware of USAID’s sponsorship of the nets they
received just 2 months before.

During the audit, mission officials identified the need to update and clarify the mission’s policy
on branding to comply with USAID and congressional requirements. Noncompliance with these
requirements denies the U.S. Government and the American people the maximum public
diplomacy benefits from their efforts to prevent and treat malaria in Madagascar. To address
this issue, we make the following recommendation.

   Recommendation 9. We recommend that USAID/Madagascar rewrite its branding and
   marking policy to clarify branding expectations given current restrictions on working
   directly with the Malagasy Government, and give the updated policy to its implementers.


                                                                                               12
OTHER MATTER
Previous Audit and Review
Recommendations Were Not
Implemented
During the audit, other matters came to our attention that could have a negative effect on
USAID programs in Madagascar.

ADS 596.3.1, “Establishing Internal Controls,” states that all Agency employees play a key role
in developing and implementing internal controls that safeguard assets against waste, loss, or
theft. The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that managers should “(1) promptly evaluate findings from audits and other
reviews, including those showing deficiencies and recommendations reported by auditors and
others, (2) determine proper actions in response to findings and recommendations from audits
and reviews, and (3) complete, within established time frames, all actions that correct or
otherwise resolve the matters brought to management’s attention.”

Additionally, OMB Circular A-122 states that costs are allowable when they are reasonable and
adequately documented. A reasonable cost means that “in its nature or amount, [the cost] does
not exceed that which would be incurred by a prudent person under the circumstances
prevailing at the time the decision was made to incur the costs.” The circular states, “In
determining the reasonableness of a given cost, consideration shall be given to generally
accepted sound business practices . . . federal and state laws and regulations . . . and
significant deviations from the established practices of the organization which may unjustifiably
increase the award costs.”

USAID/Madagascar gave the cooperative agreement to PSI with a special award condition that
required a financial review of PSI’s internal controls. According to the condition, PSI had
6 months after the start of the agreement—June 2013—to resolve any problems found in the
review.

The mission’s Office of Financial Management conducted the financial review and issued its
report in January 2013. The review found weaknesses with PSI’s warehouse management,
including lack of electricity at some of its main warehouses and excessive salaries for some
employees. PSI’s ability to proceed with the program was subject to it demonstrating that final
recommendations from the financial review had been implemented.

In addition, Global Fund OIG conducted an audit of programs implemented by PSI. 2 The report
raised significant concerns, some of which were similar to those in USAID’s review. For
example, the report said PSI’s regional warehouse in Toamasina did not have proper air
conditioning and was extremely hot because of the corrugated iron roof. In another instance, the
report found that while employee benefits may be part of PSI’s remuneration package, the
extent of the benefits paid to employees seemed excessive, especially when compared with the
purpose for which the funds were provided, meaning salaries and benefits were a significant
percentage of the total budget. Although USAID is not required to address Global Fund audit

2
    Audit report GF-OIG-020, October 31, 2011.


                                                                                              13
findings, during the agreement negotiation process USAID asked PSI to be sure that the
problems identified in the audit would not be present in USAID’s program.

Despite this request, the audit found that PSI had not resolved these problems.

Warehouse Conditions Had Not Improved. Auditors visited PSI’s main warehouse in
Antananarivo, which housed nets remaining after the 2012 campaign, and found USAID-funded
contraceptives were not stored at a cool enough temperature. According to the manufacturer,
the contraceptives should be stored in places kept between 59 and 86 degrees Fahrenheit, as
shown in the photos below. However, the temperature in the warehouse on 5 of the 9 days just
before the auditors’ visit exceeded 86 degrees; on December 2 the temperature reached 90.7
degrees, and on December 13 it was 89.8 degrees. PSI officials blamed the problems on
intermittent electricity supply and the landlord’s failure to install ventilators that PSI requested.




                   Despite warnings like this, PSI stored contraceptives in
                   warehouses where temperatures went above 86 degrees
                   Fahrenheit. (Photo by RIG/Pretoria, December 2013)

Auditors also found similar problems in PSI’s regional warehouse in Toamasina. USAID-funded
contraceptives were stored in a place without temperature control, and the warehouse’s
corrugated iron roof increased storage temperatures. They exceeded 86 degrees for 3 days in
December before our visit. Although PSI’s regional staff had developed a plan to address this
problem, they never received funding from their head office in Antananarivo authorizing them to
proceed.

Because of these conditions, USAID-funded contraceptives could become useless and result in
financial loss. Consequently, we make the following recommendation.

   Recommendation 10. We recommend that USAID/Madagascar instruct Population
   Services International to implement an action plan to correct contraceptive storage
   conditions within 90 days.

Excessive Salaries. PSI internal policy states that “staff remuneration should be based on
usual and customary salary practices for the local country and region, not to exceed published
USAID Foreign Service National salary guidelines for USAID-funded projects.” However, the
financial review found that PSI’s maximum allowed salary exceeded USAID’s by 174 percent.


                                                                                                  14
This violates OMB Circular A-122, Attachment B, Section 8.b, which states that the costs of
compensation are “allowable to the extent that total compensation to individual employees is
reasonable for the services rendered and conforms to the established policy of the organization
consistently applied to both Federal and non-Federal activities.” PSI responded to the finding by
stating that it made a few exceptional cases to attract and retain highly qualified key technical
staff.

In July 2013, 6 months after the initial financial review, USAID/Madagascar conducted a follow-
up review. The draft report said some of the findings and recommendations reported previously
had not been implemented and resolved. Forty-nine percent of PSI’s employees were paid more
than USAID’s local staff by category. PSI officials told auditors that PSI, instead of adjusting the
salaries, did a comprehensive salary survey of other international nongovernmental
organizations to verify the competitiveness and reasonableness of salaries paid to its staff.
However, the results of the survey were not available during our audit, and PSI continued to pay
its staff more than USAID rates.

These recommendations remained unaddressed because USAID/Madagascar did not follow up
on their implementation. Although the AOR met four times with PSI and conducted two site
visits in FY 2013, he did not address these issues at any of those events.

Additionally, USAID asked PSI to develop a strategy to make sure that issues identified in the
Global Fund audit would not be present in USAID’s program. But it did not follow up with PSI
nor verify that the issues were not repeated in USAID’s program. The AOR said he did not
follow up on the Global Fund recommendations because he had not read the audit report.
Though he was aware of some of the financial review’s findings and recommendations, he did
not follow up on those either. He said USAID/Madagascar’s PMI team was understaffed and
that from August to December 2013 he was the mission’s only full-time PMI official. He also said
he inherited additional work created by other vacancies.

Nonetheless, the AOR had opportunities to follow up on the financial review recommendations
in the four meetings and two site visits to PSI after the financial review came out. The auditors
concluded that the AOR did not follow Mission Order 203-004 on monitoring site visits, effective
May 27, 2011, that contained a checklist and reminded AORs to follow up on outstanding audit
findings.

Because PSI did not implement previous recommendations, USAID funds could be misused for
unallowable costs, reducing the amount of funds available to meet program objectives.
Therefore we make the following recommendations.

   Recommendation 11. We recommend that USAID/Madagascar quantify excessive
   salaries paid to Population Services International employees, determine the allowability
   of any excessive amounts, and recover from Population Services International any
   amount determined to be unallowable.

   Recommendation 12. We recommend that USAID/Madagascar remind its agreement
   officer’s representatives and contracting officer’s representatives in writing of the
   importance of complying with Mission Order 203-004 when conducting site visits, and
   specify appropriate sanctions for repeated failure to do so.




                                                                                                 15
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, the mission agreed with all publicly disclosed
recommendations. Because of correspondence received from the mission after its response to
the draft report, we decided to delete Recommendations 7 and 8 in the draft report and
renumber Recommendations 9 through 14 accordingly.

Based on management’s comments and subsequent correspondence, we acknowledged
management decisions on seven recommendations (1, 3, 6, 9, 10, 11, and 12).
Four recommendations remain without a management decision because they did not meet
various requirements of ADS 595.3.1.2 (4, 5, 7, and 8). Of the seven recommendations with an
acknowledged management decision, we disagreed with two (1 and 9) and consider that final
action was taken on one (10). A detailed evaluation of management comments follows.

Recommendation 1. The mission agreed with the recommendation to implement a plan
increasing its involvement in NCC and coordinating efforts with other donors to improve the
quality and timeliness of population censuses. In its comments, the mission provided a detailed
breakdown of PMI duties and assignments. In subsequent correspondence, it gave a target date
of August 1, 2014, for final action, including having a new infectious diseases specialist on
board.

Although we acknowledge management’s decision, we disagree with it. The mission’s response
addresses donor coordination in general terms only and does not address census results at all.
For example, the responsibilities of the activity manager are defined as maintaining “contacts
with the GOM [Government of Madagascar], non-governmental organizations, and other donors
to gain information needed for more effective project management,” while the technical focal
point “coordinates with GOM, partners and other donors on all matters pertaining to relevant
technical area.” For OIG to drop its disagreement with this management decision, the mission
should provide more information on how it intends to work with other donors and NCC
counterparts to improve the quality and timeliness of population census results.

Recommendation 2. [Redactions in this section of the report represent information that could
identify an individual USAID employee. Personally identifiable information is subject to
protection under the Privacy Act and other laws. The disclosure of the identity of this individual
employee would not advance the public’s right to know and understand the operation of the
program that is the subject of this audit].

Recommendation 3. The mission agreed with the recommendation to implement a plan to
distribute unused nets from prior distribution campaigns. In its comments, the mission provided
a detailed distribution plan; in subsequent correspondence the mission said the plan was
completed in January 2014. We acknowledge management’s decision on this recommendation.
A determination of final action will be made by the Office of Audit Performance and Compliance
Division upon the submission of evidence supporting the implementation of the plan provided.

Recommendation 4. The mission agreed with the recommendation to implement a plan to
improve monitoring and oversight of net distribution activities and added that a plan specific to


                                                                                               16
the warehouses will be written by May 30, 2014. However, pursuant to ADS 595.3.1.2.c,
management decisions on procedural recommendations must contain three elements: an
indication of agreement or disagreement with the recommendation; detailed information about
the planned corrective actions; and a target date for completing them. Although management’s
comments indicate agreement and a target date for when the plan will be written, they do not
contain detailed information about planned actions or a target date for when they will be
implemented. Consequently, this recommendation remains without a management decision.

Recommendation 5. The mission agreed with the recommendation to determine the
allowability of $75,838 in questioned cost-sharing contributions and said it will ask the
agreement officer to make a determination by June 15, 2014. However, pursuant to ADS
595.3.1.2.a, a management decision cannot be reached on this recommendation until the
agreement officer specifies the amount of questioned costs allowed and/or disallowed.

Recommendation 6. The mission agreed with the recommendation that it instruct PSI to
remove items similar to those shown on pages 9 and 10 from its cost-share contributions and
verify that these amounts are reflected properly in PSI’s SF-425 reports. In its comments and
subsequent correspondence, the mission said it will ask PSI to remove all unallowable amounts
and will verify that PSI has done so by August 30, 2014. We acknowledge management’s
decision.

Recommendation 7 (Recommendation 9 in draft). The mission agreed with the
recommendation to implement a plan to review the composition of implementers’ cost-sharing
contributions periodically as part of its normal financial oversight procedures. However, the
mission’s comments only restated the recommendation and did not provide detailed information
about planned corrective actions as required by ADS 595.3.1.2.c.(2). Consequently, this
recommendation remains without a management decision.

Recommendation 8 (Recommendation 10 in draft). The mission agreed with the
recommendation to implement a plan, including surprise site visits, to verify that net bags from
future PMI distribution campaigns are disposed of properly. In subsequent correspondence, the
mission said it would draft such a plan by August 30, 2014. However, the mission’s comments
only restated the recommendation and did not provide detailed information regarding planned
corrective actions as required by ADS 595.3.1.2.c.(2). Consequently, this recommendation
remains without a management decision.

Recommendation 9 (Recommendation 11 in draft). The mission agreed with the
recommendation to rewrite its branding and marking policy to clarify branding expectations
given current restrictions on working directly with the Malagasy Government, and disseminate
the updated version to its implementers. In its response, the mission gave the text of an e-mail
about branding policy sent in October 2012 and said it would remind all partners of this policy
again. In subsequent correspondence, the mission set a target date of September 30, 2014.

Although we acknowledge management’s decision, we disagree with it. The recommendation
called for the mission to “rewrite” its branding policy, but the proposed action merely entailed
resending the October 2012 e-mail. As stated in the draft report and in the first paragraph on
page 13 of this report, previous communications with implementers were not effective in
specifying branding requirements. Although the mission stated in subsequent correspondence
that it would rewrite its branding policy, it only restated the recommendation and provided no
details as to what the revised policy would contain. For OIG to drop its disagreement with this
management decision, the mission, in redrafting its branding policy, should clarify implementers’


                                                                                              17
questions regarding branding. This clarification could include, for instance, a “Frequently Asked
Questions” branding fact sheet that could be disseminated to implementers in a variety of ways.

Recommendation 10 (Recommendation 12 in draft). The mission agreed with the
recommendation to instruct PSI to implement an action plan to correct commodity storage
conditions within 90 days. On April 16, 2014, the AOR instructed PSI to submit a
comprehensive action plan within 10 days, with corrective action to be completed 30 days after
submission. The AOR asked PSI to describe how it will verify that corrective actions have been
completed and how it will monitor future storage conditions for all USAID-funded commodities.
Based on management comments and the supporting documentation, we acknowledge that a
management decision has been reached and final action taken on this recommendation.

Recommendation 11 (Recommendation 13 in draft). The mission agreed with the
recommendation to quantify excessive salaries paid to PSI employees, determine the
allowability of any excessive amounts, and recover from PSI any amount determined to be
unallowable. In subsequent correspondence, the mission said it would ask the agreement officer
to quantify excessive salaries by August 30, 2014. Since the recommendation did not question a
specific amount, it is a procedural recommendation and not a questioned cost recommendation
for purposes of ADS 595.3.1.2. Consequently, we acknowledge management’s decision.

Recommendation 12 (Recommendation 14 in draft). The mission agreed with the
recommendation and said it would send a reminder to all employees about the importance of
complying with mission orders, including appropriate sanctions. In subsequent correspondence,
the mission established a target date of June 30, 2014. We acknowledge management’s
decision.




                                                                                              18
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of this audit was to determine whether USAID/Madagascar’s nets funded under
PMI are reaching intended beneficiaries in Madagascar and were used as intended. The
mission supported two projects that procured and distributed nets through its fiscal years 2011
and 2012 PMI funding. The audit selected both projects—the first implemented by JSI for net
procurement and the second implemented by PSI for net distribution. The audit covered 2012
and 2013 activities, which were implemented with PMI funding received in fiscal years 2011 and
2012.

The total estimated cost of the awards was $536.77 million—$499.95 million for JSI’s DELIVER
project 3 and $36.82 million for PSI’s Integrated Social Marketing project—and a cost-share
requirement of $9.59 million for PSI. As of September 30, 2013, USAID/Madagascar had
obligated $22.32 million for program expenses and spent $18.99 million, while PSI had
contributed approximately $1.44 million toward its cost-share requirement. During 2012 and
2013, USAID procured 2.1 million nets in 19 districts and 2.7 million nets in 28 districts,
respectively, for distribution. Because this was a performance audit, which focused on program
implementation rather than financial transactions, it did not include a financial review of
expenditures, except amounts claimed by PSI as cost-share contributions to the program.

In planning and performing the audit, we assessed significant controls the mission used to
manage the program and confirm that its implementers were providing adequate oversight of
program activities. We reviewed USAID/Madagascar’s FY 2013 Malaria Operational Plan, the
contract with JSI and cooperative agreement with PSI, mission orders, and site visit reports. We
also reviewed USAID/Madagascar’s Federal Managers’ Financial Integrity Act of 1982
certification for FY 2013 and previous audit and financial review reports to identify internal
controls and other problems that could be significant to this audit.

To establish criteria for the audit, we reviewed the WHO guidelines on universal net coverage;
USAID/Madagascar’s FY 2013 Malaria Operational Plan; ADS Chapters 204, 303, and 320; and
22 CFR 216 and 226.

We performed audit fieldwork in Madagascar from December 3 through December 19, 2013.
We conducted fieldwork at USAID/Madagascar in Antananarivo and at implementers’ offices
and selected warehouses. We also conducted site visits in the regions of Mahajanga and
Toamasina.



3
  JSI’s DELIVER project provides commodities to fight malaria to countries worldwide and strengthens
supply systems and capacity to manage the commodities effectively.


                                                                                                 19
                                                                                       Appendix I


Methodology
To answer the audit objective, we first evaluated the mission’s management and oversight of
the programs selected for audit and their effectiveness by reviewing award documents, progress
reports, and performance monitoring plans. Next, we reviewed site visit reports, the mission’s
FY 2013 Federal Managers’ Financial Integrity Act of 1982 certification, a Global Fund OIG
audit of PSI issued in October 2011, and USAID/Madagascar’s financial review report, issued in
January 2013. We corroborated the information with interviews and site visits.

At USAID/Madagascar in Antananarivo, we interviewed mission officials in the health, program,
and financial management offices, plus the agreement officer for the PSI award and the mission
environmental officer. We also interviewed a USAID PMI official based in Washington, DC, on
behalf of the COR for the JSI project. We conducted additional interviews with officials from
NMCP and implementers’ staff in Antananarivo.

We selected site visit locations judgmentally to visit accessible urban and rural districts and to
include sites of both the 2012 and 2013 mass distribution campaigns. We visited Toamasina,
where the campaign took place in 2012, and Mahajanga, where it occurred in 2013. The
two regions represented four districts: Toamasina I and II, and Mahajanga I and II. During these
visits, we interviewed regional staff from implementers, three selected subrecipients, and
community health workers. We specifically asked about the adequacy of nets received,
distribution criteria, process to mobilize communities, and disposal of net bags.

Site visits included three warehouses (JSI’s in Antananarivo, and PSI’s in Antananarivo and
Toamasina). At the warehouses, we assessed storage conditions and asked about the number
of nets in storage and any plans for their use. At the community level, we assessed compliance
with environmental requirements and branding and marking plans. We also spoke with
50 beneficiaries to get their views of program effects and their awareness of USAID, determine
the number of nets they received, and verify net usage in their homes.

Because site visits were selected judgmentally, the results and overall conclusions related to
this testing were limited to the items tested and cannot be projected to the entire audit universe.
Because of the nature of the audit objective, we did not establish a materiality level for this
audit.




                                                                                                20
                                                                                      Appendix II



MANAGEMENT COMMENTS

                                                                                  April 30, 2014
MEMORANDUM
TO:        Regional Inspector General/Pretoria, Robert Mason
FORM:      USAID/Madagascar Mission Director, Susan Riley /s/
SUBJECT:   Audit of USAID/Madagascar’s Procurement and Distribution of Long-
           Lasting Insecticide-Treated Nets Under the President’s Malaria Initiative
           (Report No. 4-687-14-XXX-P)
______________________________________________________________________

On April 1, 2014, USAID/Madagascar received the draft report on the above-referenced
audit. The draft audit report contains fourteen recommendations. The purpose of this
memorandum is to provide management responses and request a management
decision on each of the fourteen recommendations. We have clearly stated our
positions on each recommendation with detailed explanation provided as needed.

Recommendation 1. Implement a plan to increase its involvement and
participation on the National Coordinating Committee (NCC), and coordinate
efforts with other donors on the committee to improve the quality and timeliness
of population census results.

Response to Recommendation 1: USAID/Madagascar agrees with the
recommendation. Based on the current internal team division of labor (see attachment
1) the CDC PMI advisor is responsible for attending these meetings. USAID will ask the
new Foreign Service National (FSN) staff to attend with the new CDC PMI advisor so
that two members of the PMI team are in attendance at these meetings. The PMI team
will continue to have weekly meetings to ensure that all PMI team members are up to
date on notable progress and activities across all areas.

Recommendation 2. [Redactions in this section of the report represent information that could
identify an individual USAID employee. Personally identifiable information is subject to
protection under the Privacy Act and other laws. The disclosure of the identity of this individual
employee would not advance the public’s right to know and understand the operation of the
program that is the subject of this audit].

Recommendation 3. Implement a plan to distribute unused nets from previous
campaigns.

Response to Recommendation 3: USAID/Madagascar agrees with this
recommendation and a plan was drawn up in January 2014 (see attachment 2).

                                                                                               21
Recommendation 4. Implement a plan to improve monitoring and oversight of its
net distribution activities, including visits to warehouses storing nets, to make
sure distributors are working effectively and consistently.

Response to Recommendation 4: USAID/Madagascar agrees with the
recommendation to improve monitoring and oversight of its net distribution activities. A
monitoring plan specific to the warehouses will be drawn up by May 30, 2014.

Recommendation 5. Determine the allowability of $75,838 in questioned cost-
share contributions made by PSI and disallow any amounts determined to be
unallowable.

Response to Recommendation 5: USAID/Madagascar agrees with the
recommendation and will ask the USAID/Madagascar Agreement Officer to make a
determination of the allowability of $75,838 in questioned cost-share made by PSI. We
have asked the Agreement Officer to make this determination by June 15, 2014 (see
attached letter to the Agreement Officer – attachment 3).

Recommendation 6. Ask PSI to remove similar amounts not sampled from its
reported cost-share contributions, and verify that these amounts are reflected in
PSI’s financial forms, called Standard Form 425 reports.

Response to Recommendation 6: USAID/Madagascar agrees with this
recommendation and will ask PSI to remove all unallowable costs from reported cost-
share not sampled from its reported cost-share contributions and USAID/Madagascar
will verify that these amounts are reflected in PSI’s financial forms.

Recommendation 7. Determine the allowability of $187,419 in questioned cost-
share contributions made by PSI attributable to the U.S. Government’s share of
Global Fund funding and disallow any amounts determined to be unallowable.

Response to Recommendation 7: USAID/Madagascar agrees with the
recommendation and will ask the USAID/Madagascar Agreement Officer to make a
determination of the allowability of $187,419 in questioned cost-share made by PSI.
We have asked the Agreement Officer to make this determination by June 15, 2014
(see attached letter to the Agreement Officer – attachment 3).


Recommendation 8. Verify that these amounts are reflected properly in PSI’s
Standard Form 425 reports.

Response to Recommendation 8: USAID/Madagascar agrees with the
recommendation to verify that amounts are reflected properly in PSI’s Standard Form
425 each quarter. If the necessary information cannot be obtained from the SF425, the
Agreement Officer will be asked to modify the agreement so that the information is


                                                                                      22
obtained in the quarterly report.

Recommendation 9. Implement a plan to include periodic review of the
composition of implementers’ cost-share contributions as part of its normal
financial oversight procedures.

Response to Recommendation 9: USAID/Madagascar agrees with the
recommendation and will review the composition of implementers’ cost-share on a
quarterly basis as part of the financial oversight procedures.

Recommendation 10. Implement a plan, including surprise site visits, to verify
that net bags from future PMI distribution campaigns are disposed of properly.

Response to Recommendation 10: USAID/Madagascar agrees with the
recommendation to implement a monitoring plan for future PMI-supported net
distributions, including surprise site visits, to verify that net bags from future PMI
distribution campaigns are disposed of properly.

Recommendation 11. Rewrite its branding and marking policy to clarify branding
expectations given current restrictions on working directly with the Malagasy
Government, and disseminate the updated version to its implementers.

Response to Recommendation 11: USAID/Madagascar agrees with this
recommendation. On October 26, 2012 an email (see attachment 4) went to our
partners asking them to add the following sentence on not co-branding with GOM to
their branding plan:

"So long as the US Government does not recognize the Government of
Madagascar, neither USAID nor its partners will co-brand with it, and USAID
funding will not be used to produce co-branded materials."

USAID/Madagascar will remind all partners again.

Recommendation 12. Instruct PSI to implement an action plan to correct
contraceptive storage conditions within 90 days.

Response to Recommendation 12: USAID/Madagascar agrees with this
recommendation. USAID/Madagascar sent a formal letter to PSI requesting them to
develop and implement an action plan to correct the contraceptive storage conditions
within 30 days (see attachment 5).

Recommendation 13. Quantify excessive salaries paid to PSI employees,
determine the allowability of any excessive amounts, and recover from PSI any
amount determined to be unallowable.

Response to Recommendation 13: USAID/Madagascar agrees with this


                                                                                         23
recommendation and will ask the Agreement Officer to determine the allowability of any
excessive amounts, and recover from PSI any amount determined to be unallowable.


Recommendation 14. Give agreement officer’s representatives (AORs) and
contracting officer’s representatives written reminders about the importance of
complying with Mission Order 203-004 when conducting site visits, and specify
appropriate sanctions for repeated failure to do so.

Response to Recommendation 14: USAID/Madagascar agrees with the
recommendation and will send a reminder to AORs and CORs about the importance of
complying with Mission Orders. USAID/Madagascar will come up with appropriate
sanctions for repeated failure.




                                                                                    24
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
